Audit of Selected USAID Bureaus’ Training, Use
and Accountability of Cognizant Technical
Officers
Audit Report Number 9-000-03-009-P

September 22, 2003




                     Washington, D.C.
September 22, 2003


MEMORANDUM

FOR:           GH/SPBO Director, Joyce M. Holfeld
               ANE/SPO Director, Larry H. Brady
               EGAT/PAICO Acting Director, Patricia L. Rader
               M/PE Director, Timothy T. Beans

FROM:          IG/A/PA Director, Nathan S. Lokos /s/

SUBJECT:       Audit of Selected USAID Bureaus' Training, Use and Accountability of
               Cognizant Technical Officers
               (Report No. 9-000-03-009-P)


This memorandum transmits our final report on the subject audit. In finalizing this report, we
considered your comments on our draft report and have included this response in its entirety in
Appendix II.

This report includes five procedural recommendations. In your written comments, you
concurred with these recommendations and identified actions to address our concerns.
Consequently, management decisions have been reached on all five recommendations. Please
provide documentation supporting final action on these recommendations to USAID’s Office
of Management Planning and Innovation.

I want to express my sincere appreciation for the cooperation and courtesies extended to my
staff during the audit.
This page intentionally left blank.
Table of   Summary of Results.....................................................................................5
Contents
           Background ..................................................................................................5

           Audit Objectives ..........................................................................................6

           Audit Findings .............................................................................................7

                      Did USAID Bureaus provide adequate training
                      and guidance to their Cognizant Technical Officers
                      to help ensure that they were aware of and
                      capable of performing their responsibilities?...................................7

                                 Bureaus Need to Provide CTO Training ...............................7

                      Did USAID Bureaus hold their Cognizant
                      Technical Officers accountable for performing
                      their responsibilities in accordance with
                      USAID policies and regulations?...................................................12

                                 Bureaus Need to Evaluate CTO Performance ...................12

                                 Bureaus Need to Obtain CTO Designation
                                 Letters………………………………………………...….15

           Management Comments and Our Evaluation ............................................18

           Appendix I - Scope and Methodology .......................................................19

           Appendix II - Management Comments......................................................21




                                                                                                                            3
This page intentionally left blank.




                                      4
Summary of    An important member of any USAID acquisition or assistance team is its
Results       Cognizant Technical Officer (CTO). It is the CTO's responsibility to ensure,
              through liaison with the contractor or grant recipient, that the terms and
              conditions of the acquisition and assistance instrument are accomplished. (See last
              paragraph on this page.)

              As part of the OIG's multi-year strategy for auditing USAID procurement
              activities and as part of a worldwide audit, the Performance Audits Division of the
              Office of Inspector General conducted this audit to determine whether selected
              USAID Bureaus1 provided adequate training and guidance to their CTOs and held
              them accountable for performing their responsibilities in accordance with USAID
              policies and regulations. (See page 6.)

              The audit found that the Bureaus had not provided CTOs enough training to
              acquire core competencies or to understand and perform the full range of tasks
              assigned to them; moreover, the Bureaus lacked a mechanism to identify the
              training needed. (See pages 7 and 10.) In addition, they lacked a process to
              formally hold all their CTOs accountable for the performance of the tasks
              assigned to them and did not ensure that designation letters were obtained for all
              contracts. (See page 12 and page 15.)

              This report includes five recommendations to help the Bureaus improve CTO
              training and to hold CTOs accountable for the performance of their tasks. (See
              pages 11 and 15, and 17.)

              Management’s comments are included in their entirety in Appendix II. In their
              comments, the Bureaus and the Office of Procurement concurred with our
              recommendations and described the actions planned to address our concerns.
              When fully implemented, these actions should significantly improve CTO training
              and accountability. (See page 21.)


 Background   USAID uses the term Cognizant Technical Officer (CTO) in lieu of other
              commonly used U.S. Government terms, such as contracting officer’s technical
              representative or contracting officer’s representative. The term CTO denotes that
              the individual may be responsible for certain defined actions involving grants and
              cooperative agreements, as well as contracts. CTOs fulfill a vital role in USAID’s
              acquisition and assistance process; when acting within the scope of their




              1
               For purposes of this report, the term “Bureau(s)” refers to the three bureaus selected for audit:
              Global Health (GH), Economic Growth, Agriculture and Trade (EGAT), and Asia and the Near
              East (ANE).

                                                                                                                   5
                   delegated authority, they bind the U.S. government as surely as the contracting
                   officer.2

                   As a practical matter, contracting officers do not have sufficient technical
                   expertise or time to ensure successful administration and completion of all aspects
                   of each award. Therefore they rely on CTOs to act for them with respect to
                   certain critical administrative actions and technical issues arising under these
                   awards. It is the CTO's responsibility to ensure, through liaison with contractors
                   and grant recipients, that the technical and financial aspects of the acquisition or
                   assistance instrument are realized. For that reason, contracting officers have been
                   instructed to designate a properly trained individual to serve as the CTO for each
                   contract or assistance award.

                   USAID’s Office of Human Resources, Learning Support Division, has designed a
                   training program, based on the core competencies required by the Office of
                   Federal Procurement Policy. The training program is designed to provide CTOs
                   with the basic knowledge and skills needed to effectively fulfill their
                   responsibilities. A designated CTO is certified after successfully completing the
                   program.

                   Three of the seven Washington bureaus were selected for audit: one geographic
                   Bureau—Asia and the Near East—and two pillar Bureaus—Global Health and
                   Economic Growth, Agriculture and Trade. As of March 2003, these three
                   Bureaus had approximately 136 designated CTOs, who, according to information
                   provided by the Bureaus, were responsible for managing contracts, grants, and
                   cooperative agreements estimated at $5.7 billion.



Audit Objectives   This audit was conducted as part of a worldwide audit and as part of the OIG's
                   multi-year strategy for auditing USAID’s procurement activities.

                   The audit was conducted to answer the following questions:

                   • Did USAID Bureaus provide adequate training and guidance to their Cognizant
                     Technical Officers to help ensure that they were aware of and capable of
                     performing their responsibilities?

                   • Did USAID Bureaus hold their Cognizant Technical Officers accountable for
                     performing their responsibilities in accordance with USAID policies and
                     regulations?

                   Appendix I contains a discussion of the audit's scope and methodology. (Page 19)




                   2
                    For purposes of this report, the term “contracting officer” is used to represent warranted
                   contracting office staff responsible for awarding contracts, grants, or cooperative agreements.
                                                                                                                     6
Audit Findings   Did USAID Bureaus provide adequate training and guidance to their
                 Cognizant Technical Officers to help ensure that they were aware of and
                 capable of performing their responsibilities?

                 USAID Bureaus did not provide enough training to their Cognizant Technical
                 Officers (CTOs) to ensure that they not only understood the full range of assigned
                 tasks but also had the competence and confidence to perform these tasks
                 successfully. Only 5 of the 136 individuals in the Bureaus designated as CTOs were
                 certified.3 In addition, CTOs responding to a questionnaire reported that they
                 needed additional training in many of the core competencies established by USAID.
                 Contracting officers and contract and grant recipients also reported that CTOs
                 needed more training, especially in the following areas: financial management,
                 procurement regulations, and CTO authorities. The need for the Bureaus to provide
                 training is discussed in further detail below.

                 Bureaus Need to Provide
                 CTO Training

                 Contrary to requirements published by the Office of Federal Procurement Policy
                 (OFPP), and USAID’s Automated Directive System (ADS), the Bureaus did not
                 provide enough training to their CTOs to ensure that they understood and could
                 perform the tasks assigned to them. More than half of the 614 CTO questionnaire
                 respondents working in the Bureaus reported that they needed training in specific
                 competencies required to perform their tasks. This occurred because the Bureaus
                 had not prepared written training plans for their uncertified CTOs and had not
                 developed a mechanism to ensure that they received appropriate training. As a
                 result, the Bureaus’ CTOs required additional training to equip them with the
                 knowledge and skills needed to adequately perform core responsibilities.

                 OFPP Policy Letter No. 97-01, dated September 12, 1997, requires agencies to (1)
                 identify and publish model career paths, (2) establish education, core training, and
                 experience requirements for their acquisition workforce, and (3) develop
                 mandatory education, training and experience requirements to ensure that
                 individual members of the workforce possess core competencies required of the
                 position. According to OFPP the “acquisition workforce” includes contracting
                 and purchasing officers, contracting officer representatives (CORs), and
                 contracting officer technical representatives (COTRs). USAID uses the term
                 “CTO” rather than COR or COTR. Additionally, OFPP defines “core
                 competencies” as those in the Federal Acquisition Institute’s COR/COTR
                 Workbook.

                 3
                  According to information obtained from the CTO database developed and maintained by
                 USAID’s Learning Support Division, as of March 2003.
                 4
                  Of the 64 CTOs responding to the questionnaire, 61 completed the in-depth question regarding
                 specific training needs.
                                                                                                                 7
ADS 202.3.1.2(c), entitled Achieving, acknowledges OFPP’s training requirements
and discusses how USAID officials should comply with them. However, it also
recognizes that that there may be times when it is necessary to nominate an
individual to be designated as CTO who does not have the mandatory training
required by OFPP. In these cases, the operating unit should develop a written
plan that allows that individual to receive the necessary training as quickly as
possible in order to obtain these competencies and subsequent certification.

CTOs responding to the OIG questionnaire reported a need for more training. One
of the questions asked respondents to indicate the amount of training they had taken
in various core competencies within the last two years—on the average, nearly two-
thirds of the respondents indicated they had not taken any training in the core
competencies listed.

Another question asked whether they needed additional training in the various core
competencies to perform CTO duties. On the average, more than half of the 61
respondents indicated they needed more training in various core competencies. As
shown in the table on page 9, a significant number believed they needed additional
training in specific competencies. The questionnaire results for some selected
competencies are summarized as follows:




                                                                                  8
Table 1: Number and Percentage of CTOs Responding to an OIG
Questionnaire Who Said They Needed Additional Training in Selected
Competencies Required to Administer Contracts, Grants, or Cooperative
Agreements

                                                                                    CTOs Who Said
                                                                                     They Needed
                                                                                    More Training
                                                                      No. of CTOs
                                                                      Responding     No.    %
                Required Competencies for Contracts
Knowledge of contracting law and regulations                              61          39    64
Knowledge of contracting ethics including conflicts of interest and
security of information                                                   61          31    51
Ability to develop contract requirements, conduct market research,
and prepare required documents and statements of work                     60          36    60
Ability to request/assess and bids and proposals                          60          35    58
Ability to conduct price and cost determinations                          60          35    58
Ability to monitoring contractor performance                              59          28    47
Ability to process contracting actions                                    59          24    41
Knowledge of documentation including tracking orders, deliverables,
timesheets, and other record keeping                                      55          28    51
Ability to close-out, terminate contract appeals and protests             57          39    68
Ability to administratively approve vouchers for payment                  59          19    32
                 Required Competencies for Grants
                    and Cooperative Agreements
Knowledge of elements of an award                                         57          30    53
Knowledge of USAID's policy on competition                                58          37    64
Knowledge of types of assistance instruments                              59          32    54
Knowledge of USAID source/origin/nationality requirements                 59          32    54
Ability to process closeout procedures                                    58          36    62
Ability to monitor and evaluate recipients' performance                   58          24    41
Ability to review and analyze performance and financial reports and
verify timely delivery                                                    57          22    39
                    Other Skills and Competencies
Proficiency using Phoenix and NMS systems                                 60          31    52

Additionally, the contracting officers interviewed reported that CTOs needed
training in the following areas:

•       Phoenix/New Management System (NMS), USAID’s financial
        management/procurement systems.
•       Procurement regulations and the procurement process.
•       Limits on CTO authorities.
•       Ethics and conflicts of interest.
•       Performance management reporting and writing performance-based
        statements of work.
•       Proposal evaluation and scoring.
                                                                                                    9
•      Source origin issues.
•      “Working with numbers,” including cost reviews.
•      USAID policies and procedures.

Contractors and recipients interviewed also stated that some CTOs needed more
training in the types of USAID award instruments and the limits of their authority
under each type of award.

The Bureaus did not provide sufficient training because they had not developed a
mechanism to ensure that CTOs received the training they needed. None of the
three Bureaus maintained a master list of CTOs and were therefore unable to verify
whether they had received the training necessary for certification. Although
USAID’s Learning Support Division had recently developed a database of those
who have completed training, there was no mechanism in place at the Bureau level
to ensure that CTOs who needed training actually received it. Master lists were not
maintained because neither Phoenix nor NMS contained up-to-date CTO
information. Bureau personnel indicated that they had made repeated attempts to
correct the CTO-related information in Phoenix/NMS but the information remained
outdated. Additionally, Bureau personnel reported that the lack of master lists
resulted in delays in voucher processing and problems managing quarterly accruals,
unexpended balances, and deobligations.

Compounding the problems caused by the lack of the master lists was the fact that
the Bureaus did not maintain the required individual training plans for their
uncertified CTOs and, therefore, did not know which individuals required training or
which specific courses were necessary. Such training plans would document the
training each CTO needed to become certified. Individual training plans were not
developed as Bureau management had other priorities and did not realize the plans
were required for uncertified CTOs.

Additionally, CTOs reported that they lacked training because the training program
had been suspended in the late 1990s, while the Learning Support Division
redesigned the certification courses. Four new courses required for certification
began in 1998. In the fall of 2002, the four courses were condensed into three;
effective April 1, 2003, these were further condensed into two courses. When the
new streamlined certification courses began in the fall of 2002, courses were over-
subscribed and many CTOs were unable to attend.

Fortunately, the Learning Support Division reported that the 2004 fiscal year CTO
training budget has been increased. The budget increase will enable the Division to
offer additional courses in the upcoming fiscal year.

CTOs also indicated that their heavy workloads precluded spending one or two
weeks at a time in training. Most (69 percent) of the questionnaire respondents
worked on two or more awards at the same time, while many (33 percent) worked
on at least four simultaneously. In addition to their CTO responsibilities, they had
programmatic and sometimes supervisory responsibilities. Therefore, they reported
that they often had only limited time to dedicate to CTO training.
                                                                                 10
CTOs who understand their roles and responsibilities contribute to a proper and
efficient procurement process. It is critical that trained personnel administer this
process, given that USAID is essentially a procurement and project management
agency. Contracting officers who worked directly with CTOs described problems
that occurred because CTOs had not fully understood the responsibilities and
authorities delegated to them. For example:

•      On occasion, CTOs had inappropriately approved actions without the prior
       approval of the Contracting Officer:

           On at least one such occasion, this caused the Contracting Officer to
           subsequently modify the contract, creating additional cost for USAID.

           In a recent case, a CTO performed unauthorized procurement activities
           in modifying an award by $1 million.

           In another case, a CTO performed work that the contracting officer
           should have done, causing the contractor involved to file a protest.

•      Contracting officers reported that they often found it necessary to spend
       time training CTOs on an ad hoc basis as to what they can and cannot do.

Contractors and recipients also reported problems that arose because CTOs did
not understand the limits of their authority. Several recipients stated that some
CTOs were inappropriately involved in staffing and office space decisions. One
recipient noted that there seemed to be a fair amount of confusion over CTO roles
and their authority to make certain decisions, as well as in determining their
boundaries.

In summary, when untrained individuals do not perform their duties properly or
on a timely basis, the contracting officer must ultimately complete or correct the
CTO’s work. This in turn, interferes with the performance of the contracting
officer’s already burdensome workload. Furthermore, untrained CTOs might act
outside the authorities delegated to them or inappropriately delegate some
administrative responsibilities to individuals who are not designated CTOs. If
CTOs are expected to perform critical tasks efficiently and correctly, they must be
fully aware of the extent of their responsibilities and have the requisite
competencies to perform them.

       Recommendation No. 1: We recommend that the Global Health
       Bureau, the Economic Growth, Agriculture and Trade Bureau,
       and the Asia and the Near East Bureau develop training plans
       for their uncertified Cognizant Technical Officers, in
       accordance with the Office of Federal Procurement Policy
       Letter No. 97-01 and Automated Directive System 202.3.1.2(c),
       and schedule them to attend the required certification training.

                                                                                 11
       Recommendation No. 2: We recommend that the Global Health
       Bureau, the Economic Growth, Agriculture and Trade Bureau,
       and the Asia and the Near East Bureau maintain updated
       master Cognizant Technical Officer lists to ensure that their
       Cognizant Technical Officers requiring training receive it on a
       timely basis.


Did USAID Bureaus hold their Cognizant Technical Officers accountable for
performing their responsibilities in accordance with USAID policies and
regulations?

USAID Bureaus did not hold all of their CTOs accountable for performing their
CTO-related responsibilities. Contrary to federal and USAID guidance, the
Bureaus did not always establish performance expectations for critical CTO tasks.
Position descriptions, annual performance plans, and annual work objectives did
not, in all cases, include specific CTO duties and responsibilities. Some CTOs
were not evaluated at all; others could not provide evidence that they had been
evaluated. As a result, CTOs were not always evaluated as to how well they
performed their duties. Furthermore, the Bureaus did not ensure that supervisors
contacted contracting officers and other pertinent sources for input as to the
CTO’s performance. In addition, contrary to federal and USAID policy, many
CTOs working on contracts were not issued designation letters. The importance
of building accountability into the evaluation process is discussed in the following
section, while the need to obtain designation letters is further addressed on page
15.

Bureaus Need to Evaluate
CTO Performance

Although CTOs play a critical role in the acquisition and assistance process, the
Bureaus did not hold all of their CTOs accountable for performing their
responsibilities. Eleven of twenty-eight CTOs interviewed could not demonstrate
that they were held accountable for performing their CTO tasks. This occurred in
some cases because greater emphasis was placed on an individual’s program
management skills and performance than on his or her CTO competencies and
performance. As a result, the Bureaus sometimes did not hold individuals
accountable for properly performing the critical tasks that help ensure contractor
and grantee compliance with contractual and administrative requirements.

According to the Office of Personnel Management, performance management is
the systematic process of:

•      Planning work.
•      Setting expectations for critical tasks.
•      Monitoring performance.
•      Developing the capacity to perform.
•      Rating performance periodically.
                                                                                 12
•         Rewarding good performance. 5

An important element in this process is the establishment of performance
expectations for critical tasks that are periodically evaluated.

USAID policies require that employees and personal services contractors be
evaluated annually. ADS 462, entitled Employee Evaluation Program, requires
supervisors to work with U.S. direct-hire employees to develop annual employee
performance plans that contain work objectives and performance measures for
critical tasks against which actual performance will be compared. This evaluation
program also requires supervisors to obtain additional performance information
from relevant sources, a process referred to as “360-degree input.”

USAID Acquisition Regulations require U.S. personal service contractors
(USPSCs) to perform satisfactorily, as evidenced in their annual written
evaluation, to qualify for annual salary increases. Although USAID does not have
a formal policy regarding performance evaluations for other employment
categories—such as Resources Support Service Agreements (RSSAs), Technical
Assistance in AIDS and Child Survival (TAACS), Cooperative Administrative
Support Units, and Fellows, many of whom serve as CTOs—best practices dictate
that they should be held accountable for their job performance in a manner similar
to other employees. This has become even more important as the number of
USAID direct hires has decreased, while the number of individuals hired under an
alternative employment status, such as one of those above, has increased.

CTOs fulfill a vital role in USAID’s acquisition and assistance process. They are
responsible for performing critical procurement tasks, such as:

•         Verifying that USAID-funded activities conform to the terms and
          conditions of the award, to technical requirements, and to quality
          standards.

•         Administering financial management responsibilities, such as voucher
          approval, forward funding, deobligations, and closeouts.

•         Monitoring, evaluating, and reporting on recipient performance.

•         Conducting price and cost determinations.

Individuals serving as CTOs in the Bureaus generally spent a significant amount
of their workday on CTO-related tasks. Sixty-eight percent of questionnaire
respondents indicated that they spent more than 25 percent of their time on CTO
tasks. Additionally, the vast majority of respondents (84 percent) felt that
fulfilling CTO responsibilities was an important part of their overall job
performance.


5
    A Handbook Measuring Employee Performance, revised January 2001.
                                                                                 13
Despite their critical role and the amount of time spent on CTO-related activities,
only 17 of 28 individuals selected for interviews demonstrated that they had tasks
specific to their CTO responsibilities included in their performance management
documents (e.g., in their position descriptions, statements of work, work
objectives, and/or performance measures). Of the 11 individuals who could not
demonstrate that they were held accountable for performing their CTO duties:

•      Five had performance documents that included only tasks generally
       related to CTO responsibilities, such as “allocated, apportioned, and
       obligated funds” or “was responsible for budget, procurement, and support
       plans.”

•      Six either did not have or were unable to provide any form of performance
       management documentation—a matter of great concern. Of these six:

          One was a RSSA, who had did not have work objectives or a position
       description and had not been evaluated in over 10 years, since 1991.

           Two were TAACS.

           Three were U.S. direct hires.

Additionally, the Bureaus did not ensure that supervisors who prepared
performance evaluations for CTOs solicited comments from individuals who were
most likely to have information on the performance of CTO tasks, i.e., staff in the
Office of Procurement.

CTOs had overlapping and complementary responsibilities for programmatic and
administrative management of a USAID activity. Although both sets of
responsibilities were critical to the activity’s success, several contracting officers
interviewed stated that it seemed that programmatic responsibilities were
considered a higher priority, even though the CTO duties were often the most
time-consuming. Because of this bias, performance plans, statements of work,
and work objectives for many of the CTOs emphasized their programmatic
responsibilities and sometimes did not reflect the individual’s actual range of
expected duties.

Additionally, the hiring process in the Bureaus emphasized programmatic and
technical responsibilities rather than contract or assistance award administrative
duties. Position descriptions often stressed the individual’s education and
experience in the areas of economic growth, agriculture, global health, or
democracy. Almost half of the 28 CTOs interviewed stated that at the time they
were hired they did not know that their positions included CTO roles and
responsibilities.

Contracting officers, who are responsible for designating the CTO and have
immediate knowledge of their performance, are excellent sources of 360-degree
input. All of the contracting officers interviewed felt that they should be asked
                                                                                   14
for such feedback; although the majority had been asked for feedback in the past,
it happened infrequently. Only CTOs doing a “good job” asked contracting
officers to provide such feedback to their supervisors. Supervisors were not
specifically required to solicit comments related to the performance of CTO tasks;
as a result, they did not always ask for feedback from contracting officers and
other pertinent sources regarding the CTOs’ performance of these tasks.

As a result of the problems discussed above, many CTOs were not held accountable
for the proper execution of their tasks. Moreover, the lack of a formal system for
evaluating the work of those hired under an alternative employment status, such
as RSSAs and TAACS, may result in those individuals not being evaluated at all.
Twenty-two of the 64 questionnaire respondents were either RSSAs or TAACS,
creating the potential for a significant number of unevaluated CTOs. Indeed, as
mentioned on page 14, one RSSA serving as a CTO had not been evaluated since
1991. Additionally, written annual evaluations are required for USPSCs only to
qualify for annual salary increases. This may result in USPSCs at the top of their
salary ranges not being evaluated. In short, the combination of lack of
performance evaluations and lack of 360-degree input from pertinent sources,
results in CTOs not being held accountable for performing their critical CTO
tasks.

CTOs play a significant role in the successful and efficient implementation of the
contracts and grants through which USAID expects to achieve their program
goals. Therefore, it is important that CTOs are not only aware of and qualified to
perform their tasks (see preceding section), but are also held accountable for the
execution of these tasks.        Accordingly, we are making the following
recommendations to assist the Bureaus in improving CTO accountability.

       Recommendation No. 3: We recommend that the Global Health
       Bureau, the Economic Growth, Agriculture and Trade Bureau,
       and the Asia and the Near East Bureau incorporate Cognizant
       Technical Officer duties and responsibilities into the position
       descriptions, work objectives, and statements of work of each
       individual designated to serve as a Cognizant Technical Officer
       and ensure that all are evaluated.

       Recommendation No. 4: We recommend that the Global Health
       Bureau, the Economic Growth, Agriculture and Trade Bureau,
       and the Asia and the Near East Bureau require supervisors to
       solicit comments on each Cognizant Technical Officer’s
       performance of Cognizant Technical Officer tasks from
       contracting officers, and other pertinent sources, as part of each
       Cognizant Technical Officer’s periodic performance evaluation.


Bureaus Need to Obtain
CTO Designation Letters


                                                                               15
The Bureaus did not ensure that designation letters were obtained for each
contract. CTO responsibilities and limitations are delineated in the written
designation letter issued by the contracting officer responsible for the contract.
Federal regulations, as well as USAID’s Office of Procurement and the ADS,
require written designation of CTO authorities. However, contrary to this
guidance, the majority of CTOs interviewed did not have designation letters. One
reason for this was that the Office of Procurement did not have an updated list of
CTOs or a list of pending procurement actions. As a result, CTOs were often
unaware of the limits and extent of their authorities and responsibilities.

Federal Acquisition Regulation 42.202(a) requires contracting officers to provide
written authorization to delegate contract administrative responsibilities.
Additionally, Contract Information Bulletin (CIB) 93-08, issued March 10, 1993, by
USAID’s Office of Procurement, and ADS 202.3.1.2(c) require that the contracting
officer designate in writing the individual nominated by each strategic objective
team to be the CTO. Once the CTO has been formally designated, he or she can
perform certain contract administrative tasks specified in the letter, such as
reviewing and approving contractor’s invoices and issuing written interpretation of
contract technical requirements. This written designation is not required for grant or
assistance awards.

Contrary to federal guidance and USAID policy, many CTOs were not properly
designated in writing. CTO responsibilities are clearly delineated in the written
designation letter issued by the contracting officer. Although the majority of
questionnaire respondents reported that they spend more than 25 percent of their
time on CTO tasks, most did not have written responsibilities for each contract they
managed for which they could be held accountable.

Many CTOs had never received or were unable to provide designation letters for the
contracts for which they were responsible. Twenty-seven of sixty6 questionnaire
respondents (45 percent) reported that they had never received a designation letter.
Of the 28 CTOs interviewed:

•       Eleven had been properly designated in writing, including two who
        received designation letters for assistance instruments.

•       Seventeen had either never received a designation letter even though they
        served as CTOs on contracts, or could not provide designation letters and did
        not have letters in their files, as required by CIB 93-08.

One contracting officer interviewed indicated that the Office of Procurement had not
been very good in the past about issuing designation letters and needed to do a better
job. The Office of Procurement did not have an updated list of pending
procurement actions or a reliable list of CTOs and awards, making it difficult to
manage the issuance of designation letters. In addition, some CTOs speculated

6
 Of the 64 CTOs responding to the questionnaire, 60 answered a question regarding receipt of
designation letters.
                                                                                               16
that they had not received a CTO designation letter because when they had replaced
the original CTO, the letter had not been reissued. Others said that perhaps the
individual had been designated in the contract without a separate designation letter
being issued.

Designation letters are required for contracts to ensure that clear lines of contracting
authority and accountability are maintained. Without the letters, CTOs, contractors,
and recipients may be unaware of the limits and extent of CTO authorities and
responsibilities. (See page 11 for examples of problems created when CTOs are
unclear of the boundaries of their authority.) One of the contractors interviewed
stated that designation letters would help contractors understand the range of CTO
authorities, especially if the CTO is inexperienced or unclear about his/her role.
CTOs and their supervisors need to be aware of the critical tasks they are responsible
for so that these tasks can be completed properly and so that CTOs can be held
accountable for completing them.

       Recommendation No. 5: We recommend that the Office of
       Procurement issue designation letters for each contract, in
       accordance with Federal guidance and USAID policy.




                                                                                     17
Management       In their response to our draft report, the Bureaus and the Office of Procurement
Comments and     (OP) concurred with our recommendations and described the actions planned to
Our Evaluation   address our concerns. They also proposed changes in the wording of our
                 recommendations, which we considered and made, as appropriate. When fully
                 implemented, the Bureaus’ and OP’s actions should significantly improve
                 Cognizant Technical Officer (CTO) training and accountability.

                 To address recommendation No. 1, the Bureaus will initiate a program to develop,
                 execute, and track individual training plans for all uncertified CTOs.

                 To address recommendation No. 2, the Bureaus will develop and maintain a
                 master list of CTOs.

                 To address recommendation No. 3, the Bureaus will incorporate CTO duties and
                 responsibilities into position descriptions, work objectives, and statements of
                 work.

                 To address recommendation No. 4, the Bureaus will instruct supervisors to solicit
                 comments from contracting officers as part of the 360-degree feedback used for
                 CTO evaluations.

                 To address recommendation No. 5, the Office of Acquisition and Assistance
                 (OAA) will issue a policy directive, which will remind contracting officers of
                 their responsibility to designate CTOs. Additionally, OAA will provide updated
                 designation letters; these letters will address assistance instruments, as well as
                 contracts.

                 Management’s comments are included in their entirety in Appendix II. (See page
                 21.)




                                                                                                18
                                                                                    Appendix I


Scope and     Scope
Methodology
              The Performance Audits Division of the Office of Inspector General conducted
              this audit in accordance with generally accepted government auditing standards.
              This audit was designed to answer the following questions: Did USAID Bureaus
              provide adequate training and guidance to their Cognizant Technical Officers to
              help ensure that they were aware of and capable of performing their
              responsibilities? Did USAID Bureaus hold their Cognizant Technical Officers
              accountable for performing their responsibilities in accordance with USAID
              policies and regulations?

              In planning and performing the audit, we obtained an understanding of and tested
              management controls related to (1) identification of the tasks to be performed by
              Cognizant Technical Officers (CTOs), (2) identification of training needed, (3) the
              provision of training to CTOs, (4) the establishment of work objectives and
              performance measures for CTOs, and (5) the evaluation of CTO performance. We
              conducted interviews with key USAID/Bureau personnel. In addition, we
              reviewed pertinent employee evaluation documents and designation letters.

              We audited the following three USAID Bureaus:
                • Bureau for Asia and the Near East
                • Bureau for Global Health, and
                • Bureau for Economic Growth, Agriculture and Trade.

              All three bureaus are located in Washington, D.C. The audit fieldwork was
              conducted from February 5 through June 24, 2003.

              Methodology

              To answer both audit objectives we administered a questionnaire to gather
              information from CTOs in all three Bureaus. From the questionnaires, we
              obtained information on the CTOs’ background, training, and experience
              performing their tasks. As of March 2003, the Bureaus had approximately 136
              individuals designated as CTOs and, according to information provided by the
              Bureaus, these CTOs were responsible for managing contracts, grants, and
              cooperative agreements estimated at $5.7 billion. Due to the large number of
              CTOs in the Bureaus, questionnaires were distributed to a judgmentally selected
              sample of 93 of them; 64 CTOs responded. We did not develop materiality
              thresholds for either of the audit objectives.

              In addition to distributing the questionnaires and summarizing and analyzing the
              responses, we interviewed CTOs, supervisors, contracting officers, contractors,
              and grant recipients. We judgmentally selected 28 of the 64 questionnaire
              respondents to interview. Based on judgmental samples, we also interviewed 11
              CTO supervisors, 5 contracting officers, and 7 contracting and grant recipients.
                                                                                             19
The interviews provided us with an understanding of how CTOs performed their
tasks, the level of understanding of what was expected of them, and issues
surrounding limits of authority and accountability.

Additionally, to answer the second objective, we reviewed pertinent employee
evaluation documents. We requested position descriptions, work objectives and
statements of work for the 28 CTOs interviewed and analyzed these documents to
determine if work plans, statements of work, and work objectives adequately
delineated the scope and expected standards for performance of their CTO duties.
For those working on contracts, we determined if designation letters had been
obtained.




                                                                             20
                                                                         Appendix II

Management
Comments:

                                                     September 10, 2003

             MEMORANDUM
             TO:           IG/A/PA, Nathan S. Lokos

             FROM:         M/CFO/MPI, Connie Turner /s/


             SUBJECT:      Draft Report on Audit of Selected USAID Bureaus’
             Training, Use, and Accountability of Cognizant Technical Officers
             (Report No. 9-000-03-00X-P)

             The three audited bureaus (ANE, EGAT, and GH) agree with
             recommendations 1-4 and believe that, if successfully implemented, they
             will result in Cognizant Technical Officers (CTOs) being adequately
             trained and held accountable for performing their responsibilities in
             accordance with USAID policies and regulations. Since the Office of
             Acquisition and Assistance (OAA) is the responsible office for
             designating CTOs, the Office of Procurement (M/OP) requests that
             recommendation 5 be assigned to M/OP. For recommendations 1-4,
             please change “USAID Bureaus” to “the ANE, EGAT, and GH bureaus”.
             Please note additional requested changes in the wording of the audit
             recommendations below.

             Recommendation No. 1: We recommend that USAID Bureaus develop
             training plans for their uncertified Cognizant Technical Officers, in
             accordance with the Office of Federal Procurement Policy Letter No. 97-
             01 and Automated Directive System 202.3.1.2(c), and arrange for them to
             attend the required certification training.

             Bureaus’ Comments and Planned Actions: Please revise the wording of
             the audit recommendation by replacing the word “arrange” with the word
             “schedule”. The bureaus will initiate a program to develop, execute, and
             track individual training plans for all uncertified CTOs. Target complete
             date: December 31, 2003

             Recommendation No. 2: We recommend that USAID Bureaus maintain
             updated master Cognizant Technical Officer lists to ensure that their
             Cognizant Technical Officers requiring training receive it on a timely
             basis.
                                                                                   21
Bureaus’ Comments and Planned Actions: As part of the program
described under recommendation 1, the bureaus will develop and maintain
a master list of CTOs. This list will track required training taken and
needed so that it may be used as a management tool to prioritize required
training, as limited Agency resources are available for training programs.
Target completion date: December 31, 2003

Recommendation No. 3: We recommend that USAID Bureaus
incorporate Cognizant Technical Officer duties and responsibilities into
the position descriptions, work objectives, and statements of work of each
individual designated to serve as a Cognizant Technical Officer and ensure
that all are evaluated.

Bureaus’ Comments and Planned Actions: Please revise the wording of
the audit recommendation by inserting the phrase “develop a plan to” so
that the recommendation will read as follows: “We recommend that the
ANE, EGAT, and GH bureaus develop a plan to incorporate CTO duties
and responsibilities into the position descriptions (PDs), work objectives,
and statements of work (SOWs) of each individual designated to serve as a
CTO and ensure that all are evaluated.” As the evaluation plan for each
CTO is completed and that person’s PD is reviewed, the bureaus will add
appropriate language to incorporate CTO duties and responsibilities to the
individual’s PDs, work objectives, and SOWS, as appropriate. Target
completion date: December 31, 2003

Recommendation No. 4: We recommend that USAID Bureaus require
supervisors to obtain comments on each Cognizant Technical Officer’s
performance of Cognizant Technical Officer tasks from the Office of
Procurement, and other pertinent sources, as part of each Cognizant
Technical Officer’s periodic performance evaluation.

Bureaus’ Comments and Planned Actions: Please revise the audit
recommendation by replacing the word “obtain” with “solicit” and
replacing “Office of Procurement” with “Contracting/Agreement
officers”. The bureaus will instruct supervisors to obtain comments from
Contracting/Agreement Officers as part of the 360-degree feedback used
for individual CTO evaluations. Target completion date: December 31,
2003

Recommendation No. 5: We recommend that USAID Bureaus, in
collaboration with the Office of Procurement, obtain designation letters for
each contract, in accordance with Federal guidance and USAID policy.

Bureau’s Comments and Planned Actions:                     Although this
recommendation was presented to the audited bureaus, ADS 202.3.4.3.c
clearly stipulates that it is the responsibility of the Contracting Officer
(CO), not the Bureau, to designate “…in writing the Cognizant Technical

                                                                         22
Officer (CTO).” Therefore, please revise the wording of the audit
recommendation by assigning it to the Office of Procurement (M/OP) and
replacing the word “obtain” with the word “issue” so that the audit
recommendation will read as follows: “We recommend that the Office of
Procurement issue designation letters for each contract, in accordance with
Federal guidance and USAID policy.” Within 90 days of the final audit
report, the Office of Acquisition and Assistance (OAA) will (1) issue an
Acquisition and Assistance Policy Directive (AAPD) that will remind COs
of their responsibilities to designate CTOs and (2) provide updated CTO
designation memoranda that will also address assistance instruments.




                                                                        23
